<html>
<title> - NATIONAL SILVER ALERT ACT, THE SILVER ALERT GRANT PROGRAM ACT OF 2008, AND THE KRISTEN'S ACT REAUTHORIZATION OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
NATIONAL SILVER ALERT ACT, THE SILVER ALERT GRANT PROGRAM ACT OF 2008, 
             AND THE KRISTEN'S ACT REAUTHORIZATION OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                   H.R. 6064, H.R. 5898 and H.R. 423

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-194

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-525 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 15, 2008

                                                                   Page

                               THE BILLS

H.R. 6064, the ``National Silver Alert Act''.....................     3
H.R. 5898, the ``Silver Alert Grant Program Act of 2008''........    16
H.R. 423, the ``Kristen's Act Reauthorization of 2007''..........    25

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    30

                               WITNESSES

The Honorable Lloyd Doggett, a Representative in Congress from 
  the State of Texas
  Oral Testimony.................................................    32
  Prepared Statement.............................................    33
The Honorable Gus Bilirakis, a Representative in Congress from 
  the State of Florida
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
The Honorable Sue Wilkins Myrick, a Representative in Congress 
  from the State of North Carolina
  Oral Testimony.................................................    38
  Prepared Statement.............................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security    40

                                APPENDIX

Material Submitted for the Hearing Record........................    43


NATIONAL SILVER ALERT ACT, THE SILVER ALERT GRANT PROGRAM ACT OF 2008, 
             AND THE KRISTEN'S ACT REAUTHORIZATION OF 2007

                              ----------                              


                         TUESDAY, JULY 15, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Johnson, Gohmert, and 
Coble.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Karen Wilkinson (Fellow) AOC Detailee; Veronica Eligan, 
Majority Professional Staff Member; Caroline Lynch, Minority 
Counsel; and Kelsey Whitlock, Minority Staff Assistant.
    Mr. Scott. The Crime Subcommittee will convene as soon as 
we can get set up. The Crime Subcommittee will be convening as 
soon as we possibly can.
    The Subcommittee will now come to order, and I am pleased 
to welcome you today to the hearing from the Subcommittee on 
Crime, Terrorism, and Homeland Security on several bills, H.R. 
6064, the ``National Silver Alert Act;'' H.R. 5898, the 
``Silver Alert Grant Program Act of 2008;'' and H.R. 423, the 
``Kristen's Act Reauthorization of 2007.''
    Thousands of vulnerable older adults go missing each year 
as a result of dementia, diminished capacity, foul play, or 
other unusual circumstances.
    The Alzheimer's Foundation of America estimates that over 5 
million Americans suffer from Alzheimer's disease and that 60 
percent of these are likely to wander from their homes.
    Many of these will be unable to find their way back home 
because of disorientation and confusion. Their safe return home 
often depends on their being found quickly.
    The Alzheimer's Association estimates that 50 percent of 
wanderers risk serious illness, injury, or death if not found 
within 24 hours.
    We currently have no comprehensive Federal approach to this 
problem. A handful of states, including Virginia and Texas, 
along with several national non-profit organizations have 
developed programs that address the various aspects of the 
problem with missing adults.
    But the need for a coordinated national approach still 
exists.
    Financial support is also needed for the continuation of 
some of these programs and for the development of new local and 
state programs.
    In recognition of this need, three Members of Congress, the 
gentleman from Texas, Mr. Doggett; the gentleman from Florida, 
Mr. Bilirakis; and the gentlelady from North Carolina, Mrs. 
Myrick, have introduced three separate bills this session to 
address the problem of missing adults.
    Each bill approaches the problem in a slightly different 
way and complements of efforts of the other bills.
    There is some overlap among the bills, however, and the 
sponsors have been working together to draft a bill that 
combines the unique aspects of each bill into one while 
eliminating the duplication.
    I would like to thank all of them for not only introducing 
these important bills but also for their willingness to work 
together in a bipartisan manner to create a comprehensive bill 
addressing the problems, including the bills introduced by the 
gentlelady from California, Ms. Waters, and the gentlelady from 
Texas, Ms. Jackson Lee.
    All of you are working together, and we appreciate that.
    [The bill, H.R. 6064, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The bill, H.R. 5898, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The bill, H.R. 423, follows]:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. With that said, it is my pleasure to recognize 
the Ranking Member of the Subcommittee, the Honorable Louie 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    I also wish to welcome our distinguished panel of 
witnesses, of course, Congressman Doggett, Congressman 
Bilirakis, and Congresswoman Myrick. And thank you for your 
dedication in protecting the elderly and the missing adults.
    The Silver Alert Program issues public alerts for missing 
adults suffering from Alzheimer's or other forms of dementia.
    Modeled on the AMBER Alert Program, Silver Alerts 
distribute important information to law enforcement, radio and 
television station, and even drivers on the highway to help 
locate missing adults.
    Nine states, including my own state of Texas, have 
implemented Silver Alert Programs, and just 2 weeks ago, the 
Texas Silver Alert Program was used to locate a woman with 
dementia who had gone missing from her home in North Richland 
Hills. She was found 65 miles away in Jacksboro, Texas, driving 
her 1996 Chevy pick-up. Police believe she was headed to the 
Dallas/Fort Worth Airport when she was found.
    The fastest-growing segment of our population is Americans 
over the age of 65. The baby-boomer generation is beginning to 
retire, and in 2000, Americans aged 65 and older accounted for 
12.64 percent of the population. But it is estimated that by 
2030, this number will double.
    As our aging population expands, so too does the demand for 
new and innovative ways to protect them. The Alzheimer's 
Association estimates that as many as 5 million Americans 
suffer from some form of Alzheimer's Disease or dementia. Of 
these, nearly 3 million, or 60 percent, will wander, and of 
those, nearly 70 percent will do so repeatedly.
    In the nine states using this program, Silver Alerts have 
proven to be an effective tool in locating vulnerable seniors.
    According to a survey by the National Association of State 
Units on Aging, most states reported that the costs associated 
with implementing the program were minimal.
    H.R. 6064, the National Silver Alert Act, and H.R. 5898, 
the Silver Alert Grant Program Act, both facilitate the 
expanded use of the Silver Alert Program.
    I commend Congressman Doggett and Congressman Bilirakis for 
their work on this important program and look forward to 
working with them as the Committee moves forward with their 
legislation.
    While Silver Alerts help locate missing elderly and AMBER 
Alerts help locate missing children, there is still a large 
segment of the population that must not be overlooked. Each 
year, thousands of adults are reported missing. In 2007, the 
FBI reported over 171,000 missing persons ages 18 and older.
    In 2000, Kristen's Act established a National Center for 
Missing Adults, a non-profit organization that serves as a 
national clearinghouse for missing adults. The NCMA coordinates 
law enforcement, media, and the families of missing adults and 
operates a national database of endangered or at-risk adults.
    The NCMA and other programs like it provide a critical 
service to assisting law enforcement and families with locating 
missing adults.
    H.R. 423 reauthorizes Kristen's Act and grants to 
organizations, such as the NCMA, through fiscal year 2018.
    And I do commend my colleague, Congresswoman Myrick, for 
long-standing dedication to these programs and look forward to 
working with her to reauthorize Kristen's Act.
    At this time, though, I thank you for being here and look 
forward to hearing what you have to say.
    Mr. Scott. Thank you.
    I would like to recognize the presence of gentleman from 
North Carolina, Mr. Coble, and the gentleman from Georgia, Mr. 
Johnson.
    Our first witness today is the gentleman from Texas' 25th 
District, the Honorable Lloyd Doggett, who is the sponsor of 
H.R. 4081.
    Mr. Doggett served 11 years in the Texas Senate and began 
service as a justice in the Texas Supreme Court in 1988.
    In 1994, he was elected to the U.S. House of 
Representatives.
    He is currently a senior Member of the House Ways and Means 
Committee and a Member of both the Budget Committee and the 
Joint Economic Committee.
    The next witness will be the gentleman from Florida's 9th 
District, the Honorable Gus Bilirakis.
    He is in his first session in Congress, but served four 
terms as a member of the Florida House of Representatives 
before coming to Congress.
    Before that, he was the senior partner in the Bilirakis Law 
Group in Holiday, Florida.
    He serves on the House Committees on Homeland Security, 
Veteran's Affairs, and Foreign Affairs.
    He is also the senior freshman whip of the Republican Party 
and the chair of the Veteran's Affairs Task Force for the 
Republican Policy Committee.
    Our third and final witness will be the Honorable Sue 
Myrick from North Carolina's 5th District. She came to Congress 
in 1995.
    Before coming to Congress, she served 2 years as mayor of 
Charlotte, North Carolina and is the former president and CEO 
of Myrick Advertising and Public Relations and Myrick 
Enterprises.
    She serves on the Energy and Commerce Committee and is a 
Member of the Health, the Energy, and the Commerce, Trade, and 
Consumer Protection Subcommittees.
    She was appointed deputy whip of the 108th Congress and 
still holds that position.
    She chairs the House Cancer Caucus.
    Now, the witnesses will know the normal process will be 
followed.
    Your written statements will be entered into the record, 
and I ask you to summarize your testimony in 5 minutes or less, 
if you can.
    We will put the lights on, but you can govern yourselves 
accordingly.
    Mr. Doggett?

 TESTIMONY OF THE HONORABLE LLOYD DOGGETT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Doggett. I will summarize very briefly because it is 
apparent that, from the opening statements that you have both 
given, that you fully understand what we are doing and, in your 
actions prior to today, you have been very supportive.
    I am here, of course, on behalf of the bill that I 
authored, H.R. 6064, the National Silver Alert Act. But what I 
am really here on behalf of is a collective effort, a 
bipartisan effort. We are all working together on a substitute 
on which you have taken the lead, Mr. Chairman, that will 
incorporate with the National Silver Alert Act all of Mrs. 
Myrick's important legislation and significant recommendations 
and contributions from Mr. Bilirakis.
    We are about addressing those needs of the 60 percent of 
Alzheimer's patients to which you referred to and others who 
don't suffer from Alzheimer's but have other forms of dementia 
who wander away from home.
    And as you know, Mr. Chairman, if those folks are not found 
in the first 24 hours, about half of them will either die or 
suffer from serious injury. And we are looking for a way to 
address that.
    We know that there is not any silver bullet, but Silver 
Alert is a good place to begin to assist the law enforcement 
officials in the community in addressing this.
    As Mr. Gohmert pointed out, we have had a successful AMBER 
Alert system, and all we are really doing is following the same 
approach that this Congress took a few years ago in taking the 
AMBER Alert approach and taking it national.
    I believe that, actually, as of today, the state of 
Kentucky is a new state implementing a program, and we are up 
to 11 states now. But those states need coordination. And by 
having a person in the Justice Department who is responsible 
for coordinating with Federal agencies like the Department of 
Transportation, like the Federal Communications Commission, and 
the aging folks all works together, we can share best 
practices.
    We can provide a reinforcement for the states that are 
doing it now, and we can provide assistance for those states. I 
think there are at least half a dozen other states that are 
seriously looking at state Silver Alert Programs right now.
    Just a word about our experience in Texas. This program has 
only been in effect there since last September. And the 
Department of Public Safety reports that it has been used 41 
times. Thirty-eight of the 40 missing seniors were located 
safely. We believe that at least nine of these were directly 
attributable to our state Silver Alert Program.
    Each of us has a story like the one that Mr. Gohmert 
referred to. The one from my district is a fellow named Howard 
Butler. He got in his car and drove south from Austin to San 
Antonio, turned around, drove back through Austin all the way 
up to Dallas. He was found in a parking lot up there by a 
passerby who notified the police because they had the Silver 
Alert description on him and his car. They went over after some 
treatment for dehydration there in Dallas. They were able to 
reunite him with his family in a very short period of time.
    That is the kind of compelling story that we hear around 
the country that we believe a little bit of Federal support can 
help us to replicate.
    I want to extend particular thanks to two central Texans, 
Bill Cummings and Carlos Higgins, who have been active with the 
Texas Silver Alert legislature.
    I know you work with some of those folks, too, Mr. Gohmert. 
And they came up with this idea to me. That is why I filed the 
legislation because they got the endorsement of it by the 
National Silver Alert legislature.
    And I appreciate their commitment to it and would also like 
to note for the Committee that the Elder Justice Coalition, the 
Child Alert Foundation, the National Citizen's Coalition for 
Nursing Home Reform, and the Assisted Living Federation of 
America have all offered their support for this bill.
    I think all of us working together, even with the short 
timeframe we have left before the end of this session, can get 
this collective effort endorsed and approved.
    I am open to any questions you might have.
    [The prepared statement of Mr. Doggett follows:]

          Prepared Statement of the Honorable Lloyd Doggett, 
          a Representative in Congress from the State of Texas

    Mr. Chairman, Ranking Member Gohmert, and colleagues. I join you on 
behalf of H.R. 6064, the National Silver Alert Act, which I authored, 
and on behalf of the substitute on which I have worked with Chairman 
Scott and Representatives Myrick and Bilirakis. The three of us, along 
with many colleagues, who have cosponsored our bills, share a common 
concern for the challenges presented by an aging population that 
includes a rapidly increasing number of our neighbors, who suffer from 
mental impairments. The substitute for H.R. 6064 would incorporate all 
of Rep. Myrick's legislation and several provisions from the bill filed 
by Rep. Bilirakis. When it comes to the safety of missing seniors, 
there is no silver bullet, but a good start is a National Silver Alert.
    Silver Alert is a public notification system triggered by the 
report of a missing senior with dementia or other mental impairment. 
Similar to Amber Alert for missing children, Silver Alert uses a wide 
array of media outlets--such as radio, television, and highway signs--
to broadcast information about missing persons in order to locate and 
return them. In response to the unique needs presented by wandering 
elderly, eleven states--including Texas--have enacted programs such as 
Silver Alert. In fact, today marks the very first day of Kentucky's 
similar new effort. Another 5 states are actively considering such 
legislation.
    While these states have shown how successful a Silver Alert system 
can be, Americans at risk can be found in every state and every 
community. The national Amber Alert law, which Congress approved in 
2003 has provided national leadership to coordinate state programs, 
link states to resources and best practices, fund technology 
improvements, and encourage interstate and regional coordination. The 
National Silver Alert program, which I am proposing, would follow that 
successful model with a coordinator at the Justice Department to 
consult with the Federal Communication Commission, the Department of 
Transportation, and the Administration on Aging to prevent duplication 
of efforts. This would be a voluntary program that will help states 
initiate Silver Alert programs and sustain those already underway.
    Since its inception in Texas last September, Silver Alert has been 
invoked 41 times. 38 of the 41 missing seniors were located safely, and 
9 of those recoveries were directly attributable to Silver Alert. One 
of those successes involved Howard Butler, an 85-year-old man in my 
district. Mr. Butler left his home in Austin and drove south on 
Interstate 35 to the outskirts of San Antonio, then turned around and 
drove back north through Austin to Dallas--a distance of 325 miles. If 
this gentleman had been driving on I-95 here in the Northeast instead 
of I-35 in Texas, he would have traveled through seven states. Mr. 
Butler was found in the parking lot of a Dallas department store late 
one night. The responding officer knew that there was a Silver Alert 
posted for a missing person from Austin driving a dark green Buick. 
Thanks to Silver Alert, Austin Police were immediately notified, and he 
was reunited safely with his family the next morning--after being 
treated for slight dehydration at a local hospital.
    A National Silver Alert compliments other, existing programs--like 
Project Lifesaver, whose leaders endorse this legislation; and the 
Missing Alzheimer's Disease Patient Alert Program, which was included 
in the Elder Justice Act, approved by this Committee earlier this year. 
Silver Alert is unique in its ``wide net'' approach, with the ability 
to broadcast the alert beyond the immediate vicinity. With a range of 
complimentary programs, we have a better chance to find missing seniors 
in the crucial first 24 hours.
    I want to extend special thanks to Bill Cummings and Carlos Higgins 
of the Texas Silver Haired Legislature, who first asked me to develop 
this legislation to replicate nationally the success that Texas Silver 
Alert has had in locating missing seniors.
    My bill has been endorsed by groups including the Elder Justice 
Coalition, National Silver Haired Congress, Child Alert Foundation, the 
National Citizen's Coalition for Nursing Home Reform, and the Assisted 
Living Federation of America. Working together, we can prevent the 
worst outcomes and keep our seniors safe.

    Mr. Scott. Thank you very much.
    Mr. Bilirakis?

 TESTIMONY OF THE HONORABLE GUS BILIRAKIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Bilirakis. Thank you very much. Thank you, Mr. 
Chairman.
    I want to thank you and Ranking Member Gohmert for holding 
this hearing on an issue of great importance to me and many of 
my constituents.
    I am honored to testify before this distinguished panel 
about my bill, the Silver Alert Grant Program Act, in an effort 
to establish state notification systems to help finding missing 
individuals suffering from dementia-related illnesses.
    I first became involved with this issue earlier this year 
when one of my constituents, Mary Lalucci, lost her mother who 
had wandered away from her care-giving facility and could not 
be located before she had driven her car into the Gulf of 
Mexico and drowned.
    This tragedy, unfortunately, highlights the very real 
problem of older individuals who suffer from diseases which 
leave them easily confused and disoriented wandering away from 
their homes or caregiver's facilities and meeting harm because 
family, friends, and authorities could not find them in time.
    The inability to find missing elderly is a problem state 
and Federal policymakers should address before something like 
this happens again. That is why I introduced H.R. 5898, the 
Silver Alert Grant Program Act, which has been endorsed by the 
Alzheimer's Association.
    My bill would establish a grant program within the 
Department of Justice allowing states to obtain needed funding 
to establish or make improvements to their Silver Alert 
notification systems which help locate individuals with 
Alzheimer's disease and other dementia-related illnesses before 
they harm themselves or others.
    The bill also will require the Attorney General's office to 
report to Congress--and I think this is very important--on the 
experiences of states that have implemented such notification 
systems to help guide their establishment in other states.
    I have secured strong bipartisan support for my bill since 
introducing it in April, including co-sponsorship by 87 of our 
colleagues, many of you; 49 Republicans, so it is a bipartisan 
effort, and 38 Democrats.
    I am proud that the entire Florida delegation has also co-
sponsored my measure and six Members, as I said, of the 
Judiciary Committee.
    I believe that Florida and other states should establish 
alert systems similar to the highly successful AMBER Alert 
system to help find those suffering from dementia-related 
illnesses and prevent tragedies like the one that occurred in 
my community.
    The experiences of states that already have developed such 
Silver Alert systems suggest that these programs can save 
lives, as Mr. Doggett alluded to. States have found that, just 
as with missing and abducted children, the ability to filter 
pertinent information so that relevant details are transmitted 
to appropriate authorities as quickly as possible greatly 
improves the chances of finding missing seniors safely.
    I believe that the Federal Government can and should help 
states develop systems to prevent these all-too-frequent 
tragedies. This is especially important in Florida which has 
more residents over 65, I believe; the most in the country.
    My state needs Silver Alert, and it needs it now.
    Mrs. Lalucci was asked whether she thought a Silver Alert 
estimate in Florida would have saved her mother. ``Who knows?'' 
she said. ``Unfortunately, I will never know.''
    Mr. Chairman, I believe Congress should pass legislation to 
create a Federal Silver Alert Grant Program so that states can 
enact these systems to prevent another family from being forced 
to struggle with the same uncertainty.
    Before I finish, I want to thank Congressman Doggett for 
his work on this issue. Although, his bill is broader in scope 
than mine, I fully support combining these complimentary bills 
and moving them through the Judiciary Committee together with 
Congresswoman Myrick's bill.
    So the important thing is that we get this done as soon as 
possibly. I plead with you that we get this done so that we can 
save more lives.
    Thank you for the opportunity to testify on this very 
important issue, and I would be happy to answer questions as 
well.
    Thank you.
    [The prepared statement of Mr. Bilirakis follows:]

         Prepared Statement of the Honorable Gus M. Bilirakis, 
         a Representative in Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mrs. Myrick?

TESTIMONY OF THE HONORABLE SUE WILKINS MYRICK, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mrs. Myrick. Thank you both, Chairman and Ranking Member 
Gohmert, for giving us this opportunity today. And I am 
grateful to be working with my two colleagues so we can, 
hopefully, get these bills moving.
    I am here because 11 years ago, Kristen Modafferi 
disappeared in my district, and she was just shortly after her 
18th birthday.
    And when it happened, I called her parents and said, you 
know, what can we do to help. And after hearing their story and 
literal nightmare that they went through in trying to locate 
her, I introduced Kristen's Act in 1999. And it very quickly 
passed the House and Senate. And then President Clinton signed 
it into law in 2000.
    But it expired in 2005, and we reintroduced it again in the 
last Congress and weren't able to make anything happen, so we 
are back here today. And, of course, it fits very well with 
what my two colleagues are doing.
    I want to--just before I finished on my testimony--if I 
could take just a moment of personal privilege because you have 
a Member of your Committee who happens to be the dean of our 
delegation in North Carolina.
    And he, as of today, is the longest-serving Republican 
Member from North Carolina, and I just thought you all should 
know that. Howard, we are proud of you. [Applause.]
    But what the Modafferis learned was that Kristen was 3 
weeks over her 18th birthday, and when they went to the missing 
children to say can you help us by posting her picture and all, 
they said no. You know, she is 18.
    And so that is when we learned that there was nothing for 
adults that are missing or disappeared with foul play or 
suspected foul play.
    And so that is why we introduced the Act.
    But she was just a young college girl who had gone to 
California for the summer to work. And like so many college 
kids did--and one day, after working in a coffee shop, she 
literally just disappeared from the earth. I mean, nobody could 
find her. There was no trace. And they have looked for years.
    And so we established this which was, again, a 
clearinghouse for missing adults and a way for everybody to 
connect and be able to find somebody and have some help in that 
process.
    So that is really what this is about. I mean, there are 
many people, I think, over 50,000 a year, that disappear and 
nobody has a trace of what happened to them.
    And so along with the people who disappear with Alzheimer's 
and have that problem, I think this is very important. And 
having gone through this with Kristen's family, I know how 
devastating it is to a family when you lose somebody but, 
especially, when you feel like there is nothing there that you 
can do to try and find them.
    So I hope that your Committee will take this seriously and 
give it consideration. It is bipartisan, as you know. And maybe 
we can see something done with it this year; it helps a lot of 
people.
    And I thank you for your time.
    [The prepared statement of Mrs. Myrick follows:]

        Prepared Statement of the Honorable Sue Wilkins Myrick, 
     a Representative in Congress from the State of North Carolina

    I would like to thank Chairman Scott and Ranking Member Gohmert for 
the opportunity to speak today.
    I am here because 11 years ago, Kristen Modafferi disappeared 
shortly after her 18th birthday. I asked the family how I could help.
    After visiting with them and hearing a detailed account of their 
nightmare, I introduced Kristen's Act in 1999. It was swiftly ratified 
in both the House and Senate before being signed into law by President 
Clinton in 2000.
    Kristen's Law established funding to maintain a national 
clearinghouse for missing adults whose disappearance is determined by 
law enforcement to be foul play. As with the National Center for 
Missing and Exploited Children, this bill provided assistance to law 
enforcement and families in missing persons cases of those over the age 
of 17.
    In addition, it authorized 1 million dollars a year for fiscal 
years 2001 through 2004 to organizations like the National Center for 
Missing Adults--a non-profit dedicated to helping families locate 
missing loved ones 18 and older.
    Kristen's Law expired in 2005. I introduced a reauthorization in 
the 109th Congress, unfortunately my attempts to get it passed were 
unsuccessful. I am here today in hopes that in this Congress, we may 
honor the efforts of so many and pay tribute to mournful families by 
moving this bill.
    Kristen Modafferi disappeared in 1997.
    She was an extremely bright, hard-working young lady and attended 
North Carolina State University. She had just finished her freshman 
year; and like so many other college students, she decided she wanted 
to go to another city to spend the summer and work and have a new 
experience.
    So she moved to San Francisco. She enrolled in photography class at 
Berkeley and got a job at a local coffee shop. She began settling in 
and making friends.
    On Monday, June 23--which was just a mere 3 weeks after her 18th 
birthday--she left her job at the coffee shop and headed to the beach 
for the afternoon. She has not been seen since.
    When her panicked parents called National Center for Missing and 
Exploited Children, they heard these unbelievable words, ``I'm sorry--
we cannot help you.''
    They were shocked to discover that because Kristen was 18, the 
Center could not place her picture and story into its national 
database, or offer any assistance whatsoever. In fact, there is no 
national agency in the United States to help locate missing adults.
    Unfortunately, the Modafferis are not alone. The families of 
thousands of missing adults--50,930 cases as of last year--have found 
that law enforcement and other agencies respond very differently when 
the person who has disappeared is not a child.
    Coping with the disappearance of a family member is a traumatic 
experience--and I know personally what the Modafferis went through. But 
to be forced to conduct the search on their own without any skills or 
resources is simply unjust.
    The Reauthorization of Kristen's Act would again establish funding 
to maintain a national clearinghouse for missing adults and provide 
assistance to law enforcement and families in missing persons cases.
    The bill would authorize 4 million dollars a year for fiscal years 
2009 through 2019 to the National Center for Missing Adults. Since the 
inception of Kristen's Act so many years ago, I have been thoroughly 
impressed with the dedicated and motivated staff of the Center.
    Kristen's Act does send a message to these families that they 
deserve help in locating endangered and involuntarily missing loved 
ones.
    Endangered missing adults, regardless of their age, should receive 
not only the benefit of a search effort by local law enforcement--but 
also the help of an experienced national organization.
    By moving this bill, families will never again have to hear they 
cannot be assisted because a loved one is too old.

    Mr. Scott. Thank you.
    I want to thank all of our witnesses for their testimony 
and, particularly, for working together so that we can have one 
comprehensive bill without the overlapping and possibly 
contradicting provisions.
    The gentlelady from California, Ms. Waters, has a statement 
that I would ask unanimous consent to enter into the record.
    [The prepared statement of Ms. Waters follows:]

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

    I would like to thank Chairman Bobby Scott for organizing this 
hearing on three innovative proposals to locate missing Alzheimer's 
patients, persons with dementia, and other adults who are reported 
missing. I also would like to thank my colleagues, Congressman Doggett, 
Congressman Bilirakis, and Congresswoman Myrick for introducing these 
bills.
    An estimated 5 million Americans have Alzheimer's disease. One in 
eight Americans over 65 and nearly half of Americans over 85 suffer 
from this disorder. Sixty percent of Alzheimer's patients are likely to 
wander from their homes. Wanderers are vulnerable to dehydration, 
weather conditions, traffic hazards, and individuals who prey on those 
who are defenseless. Up to 50 percent of wandering Alzheimer's patients 
will become seriously injured or die if they are not found within 24 
hours of their departure from home.
    I believe the three bills we are considering today could complement 
the Department of Justice's Missing Alzheimer's Disease Patient Alert 
Program. For the past thirteen years, this Department of Justice 
program has provided a grant to a national non-profit organization to 
help local communities and law enforcement officials quickly identify 
persons with Alzheimer's disease who wander or are missing and reunite 
them with their families. It is a highly successful program whereby 88% 
of registrants who wander are found within the first four hours of 
being reported missing.
    On May 14, the Judiciary Committee adopted an amendment that I 
offered to the Elder Justice Act (H.R. 1783) along with Congresswoman 
Sheila Jackson-Lee and Congressman Adam Schiff. Our amendment 
reauthorizes and expands the Missing Alzheimer's Disease Patient Alert 
Program, allowing the Department of Justice to award multiple 
competitive grants. Preference would be given to nonprofit 
organizations that have a direct link to patients with Alzheimer's 
disease and related dementias and their families.
    I am especially interested in H.R. 6064, the National Silver Alert 
Act, introduced by Congressman Doggett. This bill would develop a 
national Silver Alert communications network for missing seniors 
modeled after the successful Amber Alert network for missing and 
abducted children. The bill requires the Attorney General to designate 
a national Silver Alert Coordinator to assist States, local governments 
and law enforcement agencies in developing Silver Alert plans.
    The National Silver Alert Act requires the Silver Alert Coordinator 
to cooperate with other federal agencies and officials, including the 
head of the Missing Alzheimer's Disease Patient Alert Program, in 
developing the Silver Alert network. I would like to thank Congressman 
Doggett for including this cooperation language, and I hereby request 
that he add my name as a cosponsor of his bill.
    With the baby boom generation approaching the age of retirement, 
the number of Americans with Alzheimer's disease could triple by the 
year 2050. The need for organized efforts to locate wandering 
Alzheimer's patients as well as other missing persons could also grow 
substantially. Consequently, it is important that we explore a variety 
of approaches to finding people who are reported missing. I look 
forward to hearing my colleagues explain their proposals.
    I yield back the balance of my time.

    Mr. Scott. She and the gentlelady from Texas, Ms. Jackson 
Lee, have provisions that need to be coordinated to make sure 
they work closely together. So I appreciate the fact that you 
are working together and have no questions at this time.
    The gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. I do appreciate Congresswoman Myrick pointing 
out that our colleague down here has long-served the 
Republicans from North Carolina, and I might add that though he 
has been so long-serving, I have seen no signs of dementia or 
reduced judgment.
    Although, he seems to reciprocate my high regard for him, 
and that may be a sign of poor judgment. But otherwise----
    Mr. Coble. Would The gentleman yield?
    Mr. Gohmert. Sure.
    Mr. Coble. I want to thank the distinguished lady from 
North Carolina and the response from the audience and my fellow 
colleagues on the Committee.
    It is beginning to sink in I am getting to be an old man. 
[Laughter.]
    Less talk about this.
    Thank you, both.
    Mr. Gohmert. But on a serious note, you all know what we 
are doing here is terribly serious and can help a great number 
of people.
    It just really is nice when we can work together on things.
    So I appreciate your efforts in that regard and for the 
good that you will do the people that are helped by this bill 
or the bills combined together.
    Thank you. I yield back.
    Mr. Scott. Thank you.
    The gentleman from Georgia.
    Mr. Johnson. Yes.
    Thank you, Mr. Chair.
    And I wanted to commend all three congress people as well 
as the Chairman for bringing these important bills protecting 
our seniors to the floor of this Subcommittee and, ultimately, 
to the full Committee and before the full Congress.
    Each of us has, in our districts, numerous instances of 
elderly people wandering off from the care of their loved ones 
or from whatever facility that they are living in.
    We must have in place the resources like that to protect 
our elderly and ensure that they do not become victims of their 
own disorientation or of others who would seek to take 
advantage of them in their weakened state.
    So I want to thank the panelists for coming and for your 
determination in making this happen.
    Thank you.
    Mr. Scott. Thank you.
    The gentleman yields back.
    And our long-serving, experienced senior citizen---- 
[Laughter.]
    Mr. Coble. Mr. Chairman, hush that talk. [Laughter.]
    Mr. Scott. The gentleman from North Carolina.
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief.
    It has already been said. I want to commend Mr. Doggett and 
Mr. Bilirakis and Mrs. Myrick for the work they have done on 
this.
    And I commend you, Mr. Chairman and Mr. Gohmert. I think it 
is a good idea to consolidate the three, which I think is plan 
of the day.
    And I am supportive.
    Thank you.
    I yield back.
    Mr. Scott. Thank you.
    I want to thank our witnesses for their testimony.
    Members may have additional written questions for the 
witnesses which we will forward to you and ask that you answer 
as promptly as you can so the answers may be part of the 
record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    We would like to mark these up as soon as possible.
    I think the likelihood of getting a quorum is, based on 
experience, somewhat remote at this point, but we will try to 
skip a couple of steps if we can once we get the agreed-to 
legislative language.
    Again, I want to express my appreciation for your 
willingness to work together. I think the senior citizens will 
be greatly helped with the legislation that we will be adopting 
with your help and cooperation.
    If there are no further comments and without objection, the 
Subcommittee will stand adjourned.
    [Whereupon, at 3:03 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you Chairman Scott and ranking member Gohmert for your 
leadership in holding today's very important hearing which is aimed at 
making America a safer place. These bills address health and safety 
issues for adults and vulnerable populations within America. 
Specifically, the Subcommittee will hold a hearing on three bills: H.R. 
6064, the ``National Silver Alert Act''; H.R. 5898, the ``Silver Alert 
Grant Program Act''; and H.R. 423, the ``Kristen's Act Reauthorization 
of 2007.'' During this hearing, the Subcommittee will examine the 
problem of elderly individuals who go missing because of dementia, 
diminished capacity, foul play, or other circumstances.
    Witnesses will include the following:

        1.  Honorable Lloyd Doggett, 25th District of Texas, Sponsor of 
        H.R. 6064, the ``National Silver Alert Act''

        2.  Honorable Gus M. Bilirakis, 9th District of Florida, 
        Sponsor of H.R. 5898, the ``Silver Alert Grant Program Act''

        3.  Honorable Sue Wilkins Myrick, 9th District of North 
        Carolina, Sponsor of H.R. 423, the ``Kristen's Act 
        Reauthorization of 2007''

    Thousands of vulnerable older adults go missing each year as a 
result of dementia, diminished capacity, foul play or other unusual 
circumstances. The Alzheimer's Foundation of America estimates that 
over five million Americans suffer from Alzheimer's disease, and that 
sixty percent of these are likely to wander from their homes. 
Alzheimer's disease and other dementia related illnesses often leave 
their victims disoriented and confused and unable to find their way 
home. According to the Alzheimer's Association, up to 50% of wanderers 
risk serious illness, injury or death if not found within 24 hours. The 
problem can be exacerbated greatly by national disasters, such as 
Hurricane Katrina, that can, in a matter of hours, increase the number 
of missing persons by the thousands.
    At least eight states, along with non-profit organizations such as 
the National Center for Missing Adults, Project Lifesaver International 
and the Alzheimer's Foundation of America, have developed programs to 
address various aspects of the problem of missing adults, but the need 
for a coordinated national approach, similar to the Amber Alert Program 
for children, still exists. In addition, financial support is needed 
for existing and new local and state programs.
    The Missing Alzheimer's Disease Patient Alert Program, administered 
by the Department of Justice, is the only federal program that 
currently provides grant funding to locate vulnerable elderly 
individuals who go missing. Authorization for this program ceased in 
1998, but Congress has continued to appropriate some monies for it 
through fiscal year 2008, when it appropriated $940,000. Another 
federal law, Kristen's Act, had authorized annual grants in the amount 
of $1 million for fiscal years 2001 through 2004 to assist law 
enforcement agencies in locating missing adults and for other purposes. 
Between fiscal years 2002 through 2006, Kristen's Act grants were made 
through the Edward Byrne Discretionary Grants Program, primarily to the 
National Center for Missing Adults, a non-profit organization. In 2006, 
Congress appropriated $150,000 for this purpose.

            A. H.R. 6064, THE ``NATIONAL SILVER ALERT ACT''

    H.R. 6064 sets forth a comprehensive national program. It directs 
the Attorney General to establish a permanent national Silver Alert 
communications program within the Department of Justice to provide 
assistance to regional and local search efforts for missing seniors. 
The bill requires the Attorney General to assign a Department of 
Justice officer as a Silver Alert Coordinator.
    The Silver Alert Coordinator acts as a nationwide point of contact, 
working with states to encourage the development of local elements of 
the network, known as Silver Alert plans, and to ensure regional 
coordination. The bill requires the Coordinator to develop protocols 
for efforts relating to reporting and finding missing seniors and to 
establish voluntary guidelines for states to use in developing Silver 
Alert plans. The bill requires the Coordinator to establish an advisory 
group (1) to help States, local governments and law enforcement 
agencies with Silver Alert plans, (2) to provide training and 
educational programs to states, local governments and law enforcement 
agencies, and (3) to submit an annual report to congress. The bill also 
requires the Coordinator to establish voluntary minimum standards for 
the issuance of alerts through the Silver Alert communications network.
    H.R. 6064 directs the Attorney General, subject to the availability 
of appropriations, to provide grants to States for the development and 
implementation of programs and activities relating to Silver Alert 
plans. The bill authorizes $5 million for fiscal year 2009 for this 
purpose. The bill also authorizes an additional $5 million for fiscal 
year 2009 specifically for the development and implementation of new 
technologies. The Federal share of the grant may not exceed 50% and 
amounts appropriated under this authorization shall remain available 
until expended.

      B. H.R. 5898, THE ``SILVER ALERT GRANT PROGRAM ACT OF 2008''

    H.R. 5898 seeks to accomplish three purposes: the creation of a 
grant program, the promotion of best practices, and an increased 
awareness of the need for coordinated efforts to locate missing 
individuals. The bill authorizes a grant program for State-administered 
notification systems to help locate missing persons suffering from 
Alzheimer's disease and other dementia related illnesses. The grants 
are to be used to establish and implement Silver Alert systems or to 
make improvements to existing Silver Alert programs. The bill sets 
forth the Sense of Congress that Silver Alert systems should be used 
only for individuals who are incapable of making personal care 
decisions or managing their own personal affairs. The bill requires the 
Attorney General to prepare an annual report related to State Silver 
Alert systems. The bill authorizes $5.6 million for each fiscal year 
2009 through 2013, with a minimum award of $100,000.

       C. H.R. 423, THE ``KRISTEN'S ACT REAUTHORIZATION OF 2007''

    H.R. 423 reauthorizes Kristen's Act (P.L. 106-468), which had 
authorized annual grants from 2001 through 2004 for the purpose of 
finding missing adults. Unlike the previous two bills, grants under 
H.R. 423 are not limited to States, but may be awarded to public 
agencies and nonprofit organizations. The grants are to be used to (1) 
maintain a national resource center and information clearinghouse; (2) 
maintain a national database for the purpose of tracking missing adults 
who are endangered due to age, diminished mental capacity, or when foul 
play is suspected or the circumstances are unknown; (3) coordinate 
public and private programs that locate missing adults and reunite them 
with their families; (4) provide assistance and training to law 
enforcement agencies, State and local governments, nonprofit 
organizations and other individuals involved in the criminal justice 
system in matters related to missing adults; (5) provide assistance to 
families in locating missing adults; and (6) assist in public 
notification of missing adults and victim advocacy. The bill authorizes 
$4 million annually for fiscal years 2008 through 2018.

              D. MY PAST AMENDMENTS ON ELDER JUSTICE BILLS

    In similar elder legislation, namely the Elder Justice Act and the 
Elder Abuse Victims Act, I co-sponsored amendments with Ms. Maxine 
Waters of California to provide funding to State, Local, and non-profit 
programs to locate missing elderly. Specifically, my amendment would 
allow a voluntary electronic monitoring pilot program to assist with 
the elderly when they are reported missing. In these particular bills, 
my amendment would allow the Attorney General, in consultation with the 
Secretary of Health and Human Services, to issue grants to states and 
local government to carry out pilot programs to provide voluntary 
electronic monitoring services to elderly individuals to assist in the 
location of such individuals when they are reported missing.

                   E. ELDER LEGISLATION IS IMPORTANT

    Elder legislation such as the legislation before us today and the 
prior elder bills that I mentioned are important. As elder Americans 
enter their twilight years, we must do more to protect and ensure their 
safety. Nothing reminds me more of the necessity of this kind of 
legislation than my very own experiences in Houston, Texas. A few years 
ago, the family of Sam Cook, a native of Houston, Texas, called me to 
help look for him. Mr. Cook was elderly and suffered from dementia. He 
had wandered off and could not be located for several days. His family 
looked for him for many days but could not find him. In an act of 
desperation, they called on me to lend my services to help them find 
him. I helped his family look for him and we found him. When we found 
Mr. Cook, he was dehydrated and in need of medical attention. We 
searched for hours and days to find him. It was worth the time and 
effort we spent to find him alive and well. Legislation that helps 
America find and take care of its lost and missing elders is extremely 
important.
    I believe that the amendments that I offered and these bills help 
elderly people. I urge my colleagues to support them.
    Thank you, Mr. Chairman, I yield the remainder of my time.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
